 U.S. DEPARTMENT OF EDUCATION
OFFICE OF THE INSPECTOR GENERAL




  REVIEW OF YEAR 2000 RELATED RISK
 TO PROGRAMS ADMINISTERED UNDER
TITLE IV OF THE HIGHER EDUCATION ACT

         Control Number S11-80014
                January 1999


 MANAGEMENT INFORMATION REPORT




        Regional Inspector General for Audit
           Washington DC Field Office
          REVIEW OF YEAR 2000 RELATED RISK
          TO PROGRAMS ADMINISTERED UNDER
        TITLE IV OF THE HIGHER EDUCATION ACT



                           TABLE OF CONTENTS

Executive Summary................................................................. 1

Background ............................................................................. 2

ED Has Made Significant Progress
in Preparing SFA Systems for Y2K Compliance..................... 4

Y2K Risk Assessment ............................................................. 5

Scope and Methodology ......................................................... 8

Exhibit 1 .................................................................................. 11

Appendix … … … … … … … … … … … … … … … … … … … … .. 14
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act



                                        Executive Summary
We have assessed the risk of the U.S. Department of Education’s (ED’s) systems and hardware
not being able to process Student Financial Assistance (SFA) in the year 2000 (Y2K). Our
assessment addressed the state of readiness of ED’s 13 mission-critical systems involved in the
delivery of SFA as reported on by ED’s Independent Verification and Validation (IV&V)
contractors.

ED has Made Significant Progress

Based on the progress made in recent months, the risk of ED’s systems and hardware not being
ready for Y2K has been significantly diminished. Presently, 10 of the 13 mission-critical systems
instrumental in the delivery of SFA have been reported by ED as renovated, validated and
implemented. IV&V supports this conclusion with the exception of some minor issues which
should not impact Y2K implementation. We concur with IV&V that all systems should, by ED’s
definition, be implemented by March 31, 1999.

Four Crosscutting Areas of Risk Remain

It is important to note that ED has not included end-to-end testing, trading partner testing or
contingency planning as prerequisites for implementation. These three areas of risk, along with
planned system enhancements will warrant continued monitoring.
• End-to-End Testing – ED’s end-to-end test plan appears complete and is in the process of
     being implemented, but is not expected to be completed until Summer 1999.
• External Trading Partners – ED has greatly increased the SFA community’s Y2K awareness,
     and has invited all institutions to test their data exchanges during “windows” of opportunity.
     Despite this effort, ED should anticipate that some trading partners may not achieve Y2K
     compliance. The number and nature of trading partner problems will determine the impact.
• Contingency Planning - ED expects to have its contingency plans established by March 31,
     1999 and tested by July 1, 1999. The diminishing time available to address any problems
     arising from the end-to-end or trading partner testing magnifies the importance of a thorough
     contingency planning process.
• New Systems/Functionality - ED has several development initiatives and systems
     enhancements planned for 1999 that must be monitored to ensure that they do not have a
     negative impact on its Y2K readiness.

ED Is on Track to Achieve Y2K Readiness

Each of the areas of risk identified above has been discussed with ED management, and is being
addressed through the Department’s Y2K Steering Committee. In our opinion, ED is presently
on track to achieve Y2K readiness for its SFA-related mission-critical systems prior to January 1,
2000, contingent upon the Department’s ability to adequately address the areas of risk mentioned
above. Our conclusion is based on the current status of ED’s Y2K effort, the resources available
and the rate of progress demonstrated in recent months, as confirmed by the IV&V process.


                                                       1
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act



                                                              Background
HEA Requirements                  This risk assessment is the first of two Office of Inspector General
Concerning Y2K                    reports concerning the Year 2000 issue required by the Higher
                                  Education Act (HEA) of 1965, as amended. The 1998
                                  amendments to the HEA require the OIG to perform and publish a
                                  risk assessment of the systems and hardware under the
                                  Department’s management. Additionally, the amendments require
                                  OIG to report on the results of our review of the Department’s
                                  Year 2000 compliance for processing, delivery, and administration
                                  of grant, loan, and work assistance programs by June 30, 1999.

                                  The HEA requires the Secretary of Education to “take such actions
                                  as necessary to ensure that all internal and external systems,
                                  hardware, and data exchange infrastructure administered by the
                                  Department that are necessary for the processing, delivery, and
                                  administration of the grant, loan and work assistance are Year-
                                  2000 compliant by March 31, 1999, such that there will be no
                                  business interruption after December 31, 1999.” This deadline for
                                  the systems supporting higher education programs is consistent
                                  with the Office of Management and Budget’s requirement that
                                  Federal Agencies complete their Y2K compliance for all Federal
                                  systems by March 31, 1999.

                                  The Y2K issue arises from the inability of computer systems to
                                  store or process dates beyond December 31, 1999. Computer
                                  systems that use a two-digit date field (i.e., “99” for the year 1999)
                                  may not be able to recognize “00” as the year 2000. Without
                                  renovation, these systems may fail or produce erroneous results.
                                  The Department is currently taking steps to mitigate the risk of the
                                  Year 2000 (Y2K) issue impacting its computer systems and
                                  programs.

Oversight Entities                The OIG, OMB and the General Accounting Office (GAO) have
Have Been Critical of             been critical of the Department’s past efforts to prepare for the
Past Y2K Efforts                  Year 2000. In our March 1998 audit report The Status of the U.S.
                                  Department of Education’s Readiness for Year 2000,” we reported
                                  that the Department was behind schedule in establishing its Year
                                  2000 readiness and needed to accelerate its efforts. We reported
                                  that ED needed to:




                                                       2
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                  •    Complete its systems inventory;
                                  •    Develop an accurate and supported cost estimate;
                                  •    Complete a Year 2000 management plan;
                                  •    Improve coordination and communication with data providers;
                                  •    Enhance its oversight of contractor Year 2000 compliance; and
                                  •    Initiate contingency plans for mission-critical systems.

                                  Although ED has made significant progress since our March 1998
                                  report, the diminishing time remaining to address the problem
                                  remains a concern. In its September 17, 1998, testimony Year
                                  2000 Computing Crisis: Significant Risks Remain to Department
                                  of Education's Student Financial Aid Systems before the
                                  Subcommittee on Oversight and Investigations, House Committee
                                  on Education and the Workforce, GAO reported that Y2K failures
                                  could severely disrupt the Department’s student financial aid
                                  delivery process, potentially delaying disbursements and application
                                  processing. GAO stated that the Department was accelerating its
                                  Year 2000 program, but with the slow start, it is still playing catch
                                  up. GAO also expressed concern that because of system
                                  interdependencies, repercussions from Year 2000-related problems
                                  could be felt throughout the student financial aid community.

                                  Until recently, OMB classified the Department in its listing of Tier
OMB Recently                      One agencies not evidencing adequate process in preparing for the
Upgraded Education                Year 2000. In December 1998, OMB upgraded the Department to
to Tier Two                       Tier Two based on ED’s most recent progress report. Tier Two
                                  includes agencies where OMB sees evidence of progress, but also
                                  has concerns. OMB concerns include 1) the Pell system renovation
                                  schedule slipping to December 1998 and 2) the Department’s
                                  numerous data exchanges which may be at risk and will require
                                  additional oversight and end-to-end testing.

                                  Success of the Department’s Year 2000 process is critical. Failure
Failure of the Y2K                to adequately prepare for the Year 2000 could result in significant
Effort Could                      disruptions in the delivery of student aid, such as the inability to
Significantly Disrupt             originate new student loans, pay guaranty agency and lender claims,
Student Aid                       and administer education grants. These negative outcomes can be
                                  avoided by the Department’s implementation of Year 2000
                                  compliant systems and by the development of strong contingency
                                  plans to ensure uninterrupted service.




                                                       3
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act



                                       ED Has Made Significant Progress In
                                    Preparing SFA Systems For Y2K Compliance
                                  The Department has made significant progress in renovating its
                                  systems and expects to be in compliance with OMB’s and HEA’s
                                  requirement to implement compliant SFA related systems by March
                                  31, 1999. In fact, the Department currently reports that ten of
                                  thirteen mission-critical systems impacting student financial aid
                                  delivery have been renovated, validated and implemented. These
                                  systems include:

                                  1. Direct Loan Central Database (DLCD)
                                  2. Direct Loan Origination System (DLOS)
                                  3. Direct Loan Servicing System (DLSS)
                                  4. Postsecondary Education Participants System (PEPS)
                                  5. Education’s Central Automated Processing System (EDCAPS)
                                  6. Campus Based System (CBS)
                                  7. National Student Loan Data System (NSLDS)
                                  8. Pell Grant Recipients Financial Management System (PELL)
                                  9. Title IV Wide Area Network (TIVWAN)
                                  10. Multiple Data Entry System(MDE)

                                  Our review of IV&V documentation supports the assertion that
                                  nine of these systems completed renovation and validation except
                                  for minor issues that remain outstanding for EDCAPS, DLSS,
                                  DLOS, CBS and TIVWAN that should not affect implementation.
                                  While the Department reports the PELL system as implemented,
                                  we found that the IV&V contractor has not yet completed its
                                  independent validation of the final test documents. However, the
                                  IV&V contractor informed OIG that they are nearing completion of
                                  their work and are not aware of any issues affecting validation and
                                  implementation.

                                  The Department reports that the remaining three systems will
                                  complete the implementation phase before the March 1999
                                  deadline. Our review of IV&V documentation disclosed no
                                  indications that the Department would miss their target dates.
                                  These systems include:

                                  1) Central Processing System (CPS): January 1999
                                  2) Education’s Local Area Network (EDNET): January 1999
                                  3) Federal Family Education Loan Program (FFEL): March 1999




                                                       4
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                  While systems reported as implemented have been independently
                                  validated and put into production, they have not met all the criteria
                                  GAO recommends be met before systems are implemented as Year
                                  2000 compliant. In its two guides, Year 2000 Computer Crisis: An
                                  Assessment Guide [GAO/AIMD-10.1.14] and Year 2000 Computer
                                  Crisis: A Testing Guide [GAO/AIMD-10.1.21], GAO recommends
                                  completion of end-to-end testing and implementation of
                                  contingency plans before systems are reported as implemented. ED
                                  has not yet completed these tasks, although both are currently in
                                  process and on schedule to meet the OMB required dates.


                                                        Y2K Risk Assessment
                                  Overall, we have concluded that the risk of ED’s systems and
                                  hardware not being ready for Y2K has been significantly diminished
                                  based on the work achieved in the past few months. Our
                                  assessment of Y2K risk of Departmental systems critical to student
                                  financial aid delivery is presented in Exhibit 1. We assessed the
                                  level of risk outstanding for each of the individual systems based on
                                  a review of the following factors:

                                  •    Status of Commercial Off the Shelf (COTS) Software Products;
                                  •    Status of the Network and Operating Environment;
                                  •    Status of External Interfaces;
                                  •    Sufficiency of Resources Available;
                                  •    Remaining Time to Complete Implementation;
                                  •    Status of the Validation Process; and
                                  •    Status of the Implementation Process.

                                  We describe our methodology and source of supporting data in the
                                  Scope and Methodology section of this report. Appendix A
                                  provides a description of the thirteen systems included in our
                                  assessment. The Summary Risk column provides our overall
                                  evaluation of the level of risk associated with the individual
                                  systems. The following descriptions provide a guide for
                                  interpreting the level of risk:

                                  BLUE:             The system has been implemented, IV&V has been
                                                    completed, and there are no outstanding IV&V
                                                    issues. Additionally, end-to-end testing and
                                                    contingency planning involving this system has been
                                                    completed.

                                  GREEN:            The system has been implemented, IV&V has been

                                                       5
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                                    completed, and there are no outstanding IV&V
                                                    issues.

                                  YELLOW:          The system requires monitoring because
                                                   implementation is not yet complete, IV&V has not
                                                   been completed, and/or minor issues need to be
                                                   resolved. The system is expected to complete
                                                   implementation by March 31, 1999.

                                  RED:              The system requires monitoring because major
                                                    issues indicate that the system may not be
                                                    implemented by March 31, 1999.

                                  There were no systems meeting our summary risk criteria for
                                  BLUE and RED. The following four systems had a summary risk
                                  of GREEN: DLCD, NSLDS, PEPS and MDE. The remaining nine
                                  systems had a summary risk rating of YELLOW.

                                  In addition to assessing risks at the system level, we identified four
                                  crosscutting risk areas that may impact the Department’s ability to
                                  continue processing student financial aid without disruptions.

                                  • ED Needs to Complete End-to-End Testing: End-to-end
                                    testing between the ED’s systems and its trading partners is
                                    critical to ensure that interrelated systems will collectively
                                    operate. The Department has developed an end-to-end testing
                                    plan for its core business processes, shared it for comment
                                    within the financial aid community and incorporated the
                                    suggestions received into its final plan. Although testing is
                                    underway, it is not expected to be completed until after the
                                    March 31, 1999 deadline required by the HEA. In part, the
                                    protracted testing process is necessary to accommodate some
                                    large institutions and servicers that are not expected to be ready
                                    for testing until Summer 1999. Based on our review, the end-
                                    to-end testing plan developed by ED includes all critical data
                                    exchanges. However, the diminishing time available to
                                    complete all essential end-to-end testing and resolve any new
                                    issues identified during the process poses additional risk.

                                  • External Trading Partners: Due in part to a significant
                                    outreach effort from ED, awareness of the Y2K problem is
                                    building among the many external parties participating in the
                                    student financial aid programs, such as lenders, guaranty
                                    agencies and schools. However, despite a concerted effort in
                                    recent months to provide advice and disseminate information
                                    about how to become Y2K compliant, the status of readiness of

                                                       6
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                       many members of the education community remains unknown.
                                       ED’s Y2K plans include scheduled time “windows” from April
                                       12, 1999 through October 1, 1999 when external trading
                                       partners are invited to test the ability of their systems to
                                       exchange data with ED systems. Even with this risk-mitigation
                                       strategy, it is expected that some participating institutions will
                                       not take advantage of the testing opportunity, and/or fail to
                                       achieve timely compliance. Y2K failures at trading partners
                                       could disrupt the student financial aid process, unless adequate
                                       contingency plans are in place.

                                  • Contingency Plans Need to be Completed: The Department
                                    needs to complete its ongoing contingency planning process to
                                    ensure the continuity of the student financial aid process. ED
                                    reports that its current effort is progressing in accordance with
                                    its established timetable and OMB reported milestones. Sixteen
                                    process teams with membership from across the Department,
                                    including OIG representation, are developing contingency plans
                                    for ED’s core business processes. The planning process also
                                    includes consultation and coordination with ED’s business
                                    partners. While the Department is presently a few weeks
                                    behind schedule, the SFA Contingency Planning Coordinator
                                    has expressed confidence that ED is still on target to have all
                                    plans established prior to March 31, 1999 and tested before July
                                    1, 1999. In addition to addressing potential Y2K failures of
                                    Department managed systems, the contingency plans will need
                                    to address failures affecting SFA that could occur at trading
                                    partners or with the public infrastructure. ED has recognized
                                    that further work will be required to test and update
                                    contingency plans as needed until December 31, 1999. To
                                    complete its planning effort, the Department will also need to
                                    address funding to cover the costs of implementing contingency
                                    options. These costs have not yet been estimated.

                                  • Continuous Monitoring for New Systems/Function: ED has
                                    several development initiatives and system enhancements that
                                    are ongoing or planned for 1999 that must be monitored to
                                    ensure that they do not have a negative impact on its Y2K
                                    readiness. They include: conversion of TIVWAN from dial-up
                                    to an Internet-based infrastructure, ongoing consolidation of
                                    critical systems at a single physical site and transition to the new
                                    Pell system. Other activities that are targeted at maintenance or
                                    resolving previously identified problems also present a risk.
                                    Included in this category are remediation of network security
                                    concerns, resolution of virus protection software issues, and
                                    continued activity to improve EDCAPS functionality. The

                                                       7
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                       risks in this category are also impacted by organizational and
                                       key personnel changes that have recently occurred or are
                                       expected in the near future.

ED Is Committed to                We have discussed each of the four risk areas with ED’s Y2K
Mitigate Risk                     Steering Committee. They have presented status reports of their
                                  plans to address end-to-end testing, trading partner testing and
                                  contingency planning. They have also committed to monitor
                                  planned system enhancements to ensure that they do not have a
                                  negative impact on the Department’s Y2K readiness.

ED Is on Track for                We are of the opinion that ED is on track to achieve Y2K
Y2K Readiness                     compliance prior to January 1, 2000, contingent upon the
                                  Department’s ability to adequately address each of the four risk
                                  areas presented above. We base this conclusion on our analysis of
                                  the data presented in Exhibit 1 and the significant rate of progress
                                  in recent months as confirmed by the IV&V process.




                                                      Scope and Methodology
Report Addresses                  We assessed the risk that the Department’s systems and hardware
Risk of Non-                      for the processing, delivery, and administration of the grant, loan
Compliant Systems                 and work assistance programs would not be Year 2000 compliant
                                  such that there will be no business interruption after December 31,
                                  1999. The focus of our assessment is the Department’s
                                  implementation of its Year 2000 Project and the status of systems
                                  supporting student financial aid programs. The scope of our risk
                                  assessment did not include sufficient steps to independently verify
                                  management’s assertions concerning systems reported as
                                  successfully implemented. Also, our report does not include an
                                  assessment of the severity of disruptions that may occur should the
                                  Department ultimately not be successful in implementing Year 2000
                                  compliant systems.

                                  We included thirteen of the Department’s mission-critical systems
                                  in our assessment. These systems include eleven SFA program
                                  specific systems operated by the Office of Student Financial Aid.
                                  The remaining two systems are the Department’s financial system
OIG Identified                    and its Departmentwide network. These two systems, managed by
Thirteen Critical                 the Office of Chief Financial and Chief Information Officer, also
Systems Affecting                 provide critical functions for student financial aid. Appendix A
SFA                               provides a listing of the thirteen systems and their related functions.


                                                       8
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act



                                  Our assessment included identifying general risks affecting the
MITRE Corporation’s               entire student financial aid delivery process under the Department’s
Y2K Scorecard                     control and specific risks affecting individual systems. In reviewing
                                  the Y2K risks for individual systems, we used a modified version of
                                  theY2K Scorecard approach developed by the MITRE
                                  Corporation, and included on its website as public information.
                                  MITRE developed the Y2K Scorecard as a management tool for
                                  providing standard, periodic high level reporting on the risk that the
                                  Year 2000 problems will impact the missions of an organization’s
                                  systems. The Scorecard identifies the level of risk for a number of
                                  risk drivers and it gives a snapshot of the progress each system has
                                  made in resolving its Y2K problems. The Scorecard uses four
                                  color codes to indicate the level of risk. The color codes, from
                                  lower to higher risk include: BLUE, GREEN, YELLOW and
                                  RED.

                                  Data supporting our assessments was primarily gathered from our
Reliance on the IV&V              monitoring of the Independent Verification and Validation (IV&V)
Process                           process used by the Department to ensure that systems were
                                  properly renovated and validated. Intermetrics provides the IV&V
                                  services for the eleven SFA program specific systems, while Booz-
                                  Allen & Hamilton provides the IV&V for EDCAPS and the
                                  EDNET. Based on our work, we determined that these contractors
                                  were adequately performing the IV&V process and that we could
                                  rely on their work in conducting our risk assessment. To gain this
                                  reliance and gather risk data, we:

                                  • Gained an understanding of the IV&V services being provided
                                    by reviewing the contracts and planning documentation and
                                    discussing the process with Department and contractor
                                    personnel;

                                  • Observed the IV&V process by attending meetings,
                                    participating in IV&V test visits, and interviewing contractor
                                    staff; and




                                  • Reviewed monthly status reports, system closure plans, draft
                                    and final IV&V reports, and other appropriate documentation.

                                  Additionally, we gathered risk information from other OIG
Other OIG                         monitoring efforts including:
Procedures

                                                       9
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

                                  • Review of Monthly and Quarterly Status reports submitted by
                                    the Department to OMB;

                                  • Review of Y2K Project documentation, including the
                                    Department’s Y2K management plan, draft end-to-end testing
                                    plans, draft contingency plans, and documents disseminated to
                                    trading partners as part of the Department’s outreach efforts;

                                  • Review of Department and GAO testimony concerning the
                                    Department’s Y2K progress;

                                  • OIG attendance at weekly Y2K steering committee meetings
                                    conducted by the Deputy Secretary;

                                  • OIG participation in Department contingency planning teams;

                                  • OIG audit reports including: The Status of the U.S.
                                    Department of Education’s Readiness for Year 2000 [Report
                                    Number 11-70011, March 1998] and Funding the Year 2000
                                    Conversion, A Report on ED’s Y2K Cost Estimates [Report
                                    Number 11-80011, December 1998];

                                  • OIG reviews of Y2K readiness at five guarantee agencies.




                                                       10
       ED OIG Management Information Report S11-80014
       Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act


                                                        Exhibit 1

            Y2K Status Report for Systems Critical to OSFAP Program Delivery
 System    Principal Summary          COTS Network& External Resources                     Time       Validation Implemen-
  Name      Office     Risk          Software Operating Interfaces                                                 tation
                                              Environ-
                                                ment

EDCAPS       OCFO



EDNET        OCIO



 CBS        OSFAP



 CPS        OSFAP



DLCD        OSFAP



 DLSS       OSFAP



 DLOS       OSFAP



 FFEL       OSFAP



 MDE        OSFAP



NSLDS       OSFAP



 PEPS       OSFAP



 PELL       OSFAP



TIVWAN      OSFAP


                                    BLUE                                    GREEN                               YELLOW


                                                              11
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act


                                                 Exhibit 1
Summary Risk: This is an indicator of the "highest" level (color) of risk associated with the
system, determined by the highest severity Risk in the other columns. [Modified from “Solution
Risk” in the MITRE scorecard by including Validation and Implementation risk directly in the risk
drivers summarized, rather than only including them indirectly through the Time risk driver.]

COTS Software: This indicator is based on risks associated with COTS application software is
by the system. [Modified from MITRE model by only including applications software.]
♦ Blue: IV&V has reported that all COTS products were found compliant.
♦ Green: All COTS application software used by the system has been certified by the
    manufacturer as compliant, and the POC responsible has documented this certification.
♦ Yellow: Some COTS products have not yet been certified by the manufacturer as compliant,
    but certification or replacement with a compliant version is expected; or the certification
    documentation has not been maintained by the Program Office.
♦ Red: At least one COTS manufacturer will not certify a product as compliant, and certification
    or replacement with a compliant version isn't expected, requiring replacement.

Network and Operating Environment: This is an indicator of risks related to the system’s
hardware, operating system(s), and networking components. [Modified from MITRE model by
adding COTS hardware and systems software, and deleting infrastructure components outside the
control of the Department (i.e. power systems, water supply, public safety, airports, etc.).
♦ Blue: The system’s infrastructure components have been validated by IV&V.
♦ Green: No specific issues related to hardware, operating system(s), and networking
   components required for successful operation of system have been identified by IV&V.
♦ Yellow: IV&V has identified the system's Hardware, Operating Systems, or a Networking
   components as requiring upgrade and/or additional testing.
♦ Red: At least one component was found to be non-compliant, and replacement with a
   compliant version isn't expected, requiring replacement and possible system modification.

External Interfaces: This is an indicator of risks related to data exchanges with the system’s
internal and external trading partners.
♦ Blue: IV&V has validated all data exchanges with the system’s internal and external trading
    partners as having been sufficiently tested, including all end-to-end test cycles that include this
    system.
♦ Green: IV&V has made no specific comments relating to the reliability of data exchanges, or
    has recommended testing but identified specific known issues.
♦ Yellow: IV&V has identified specific issues relating to data exchanges that must be addressed
    or tested.
♦ Red: There are date exchanges known to be non-compliant (or that cannot be tested) and
    which therefor still must be renovated for the system to exchange data in a compliant manner.




                                                       12
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act


                                                 Exhibit 1
Resources: This is an indicator of risks related to the Department having sufficient resources
(staff, funds, management support) to complete the Y2K project successfully.
♦ Blue: There are no unresolved issues related to resource risk.
♦ Green: There are only minor, resolvable issues related resource risk.
♦ Yellow: There are significant issues requiring management attention to ensure adequate
    resources are provided for timely and successful completion of the project.
♦ Red: Management has not committed to providing adequate resources, or there are external
    limitations that would prevent adequate resources from being made available.

Time: This is an indicator of risks related to the Department's ability to meet statutory or
administration imposed deadlines for achieving Y2K milestones.
♦ Blue: The renovated, or newly developed system has been successfully put into service prior
   to the OMB deadline of 3/31/1999, and IV&V has issued its final report with no significant
   issues identified regarding the system's compliance.
♦ Green: There are no known issues that should delay the renovated, or newly developed system
   from being successfully put into service prior to the OMB deadline of 3/31/1999.
♦ Yellow: There is a risk that the system won't be implemented, or that IV&V may not be able
   to issue its final report on the system, prior to 3/31/1999.
♦ Red: There are known issues to which would prevent one or more system components from
   being put into service prior to the OMB deadline of 3/31/1999 if not given prompt and
   continuous attention from Department management.

Validation: This indicates risks related to the timeliness and completeness of the IV&V process.
♦ Blue: Final report issued with no additional testing of core system outstanding.
♦ Green: Report issued with minor testing or monitoring of some system components still
   recommended; or, report to be issued by OMB validation deadline of 1/31/1999 and no
   significant areas still untested.
♦ Yellow: Report is not due until after OMB deadline, but will be issued with adequate time for
   system to be implemented with OMB deadline.
♦ Red: Final report may not be issued until after OMB 3/31/1999 deadline for implementation
   allowing possibility that concerns identified by IV&V will have to addressed after that
   deadline, or no independent IV&V contractor report is expected.

Implementation: This is an indicator of risks related to the timeliness and completeness of the
system implementation.
♦ Blue: System has met the GAO definition of implementation.
♦ Green: System has been reported as implemented, however, there may be steps remaining to
    meet GAO definition of implementation such as end-to-end testing with data partners, or
    completion and testing of contingency plans..
♦ Yellow: Planned implementation date is prior to OMB deadline, and there are no known
    issues to prevent achieving that date.
♦ Red: Planned implementation date is after OMB deadline, or there are known issues which
    may prevent achieving a planned date earlier than the OMB deadline.

                                                       13
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act


                                                Appendix
System Name              System Function

ED Central               The Grant Administration and Payment System (GAPS) module of EDCAPS
Automated                supports the grant planning, pre-award and award management of ED
Processing               programs. It interfaces with other program office systems, referred to as
System                   feeder systems, to process their obligation and payment data. GAPS controls
(EDCAPS)                 payments for ED's programs. GAPS services as a subsidiary the FMSS general
                         ledger for program-related obligations, payments and expenditures. GAPS
                         interfaces with FMSS at the summary level for purposes of funds control and
                         general ledger postings. GAPS also supports the ED's regulatory development
                         and clearance process and maintains its regulatory library. The Financial
                         Management System Support (FMSS) module provides the functionality for
                         general ledger and funds management. FMSS also includes receipt
                         management; payments management for administrative funds; funds
                         availability checks for FFEL; and cost management that includes performance
                         measures. The Recipient System (RS) module serves as a recipient database
                         for ED. Functionally, the RS serves to validate whether an entity is eligible to
                         receive funds. It also maintains various indicative data regarding contacts,
                         mailing addresses, bank account information, tax identification information,
                         and whether an entity is currently under suspension or debarment.

Dept. of                 All of the hardware/software supports the EDNET by developing, maintaining
Education                and facilitating the implementation of a sound and integrated information
Infrastructure           technology architecture, and promotes the effective and efficient design and
(EDNET)                  operation of all major information resources management processes.

Campus-Based             CBS supports all database maintenance and operations for the Federal Perkins
System (CBS)             Loan (Perkins), Federal College Work-Study (FWS), Supplemental
                         Educational Opportunity Grant (SEOG), Income Contingent Loan, National
                         Science Scholars, and Default Reduction Assistance programs. In addition,
                         stand-alone PC programs are created to enable ED and its customers to more
                         efficiently administer and manage the various aspects of these programs.

                         The primary mission of CBS is to gather data from 4300 institutions of
                         postsecondary education who wish to participate in Perkins, FWS, and SEOG,
                         to calculate each award according to legislatively-prescribed formulae, and to
                         enter financial transaction information into ED's accounting system.




                                                       14
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

System Name              System Function

Central                  The primary role of the CPS is to process aid applications (FAFSAs) through
Processing               a series of data checks, formula calculations and verification checks with other
System (CPS)             Federal agencies. CPS then prints the information and eligibility results on the
                         Student Aid Report (SAR) for mailing to the student or institution. CPS
                         interacts with numerous other Federal systems, thousands of institutions, and
                         millions of students. In order to perform these functions, the CPS performs
                         data matches with: 1) Federal agencies 2) NSLDS; and 3) a Hold File, which
                         includes Federal Pell Grant Overpayments and other problem cases. CPS is
                         also responsible for the development, testing, and distribution of the
                         EDExpress Software, FAFSA Express Software, EDE Express Tutorial
                         Software, and the Pell Payment Software.

Direct Loan              These two systems jointly are responsible for the servicing of all 5.8 million
Servicing                Direct Loans and maintains the ledger accounts for all financial transactions
System (DLSS)            associated with the program. The servicing system is built on top of Digital
and Direct               VAX hardware and the Central Database Router System /Financial
Loan Central             Accounting System is built on IBM mainframe hardware
Database
(DLCD)

Direct Loan              This system supports the delivery of the Direct Loan Program by providing
Origination/             the front end processing of direct student loans with the participating
Consolidation            institutions of higher education. The system enables the making of direct
System                   student loans to eligible borrowers and then transmits the appropriate booked
(DLOS)                   loan data to the Central Database and Loan Servicing systems. This system
                         also provides for the consolidation of multiple student loans into a single
                         direct consolidation loan.

Federal                  FFEL services defaulted loans and grants, FFEL Program lenders, FFEL
Family                   Program State Agencies, and closed school loans.FFELP System is used to
Education                pay interest and special allowances to lenders and to pay default claims to
Loan System              guarantors. The FFEL Debt Collection Subsystem, is used to support ED
(FFEL)                   collection of defaulted loans from all Title IV loan programs and to collect
                         Federal Pell Grant overpayments.

Multiple Data            MDE provides all computer applications requisite to the image-based
Entry                    processing of original FAFSAs, Renewal Applications, Student Aid Reports
System                   (SARs), Correspondence, FAFSA Express and FAFSA/ Renewal WEB
(MDE)                    signature documents, and return mail. MDE collects the data from ED’s
                         paper-based forms; performs document analysis and data entry services,
                         transmits the collected data to the ED Central Processing System; and
                         performs other related services.



                                                       15
ED OIG Management Information Report S11-80014
Review of Year 2000 Related Risk To Programs Administered under Title IV of the Higher Education Act

System Name              System Function

National                 NSLDS prescreens Title IV aid applications to ensure no ineligible students
Student Loan             receive aid. NSLDS collects student enrollment data from schools and
Data System              distributes it to the guaranty agencies and the Direct Loan servicer for further
(NSLDS)                  distribution, to ensure all loans are repaid in a timely manner. NSLDS
                         calculates cohort default rates for schools, guaranty agencies and lenders to
                         ensure that only quality institutions are participating in Title IV programs.
                         NSLDS allows schools and guaranty agencies access to online functions that
                         assist them in tracking students’Title IV aid history. NSLDS supports policy
                         and budget research conducted by various offices within ED, as well as the
                         Congressional Budget Office.

Postsecondary            PEPS maintains the institution's level of participation in the TITLE IV
Education                programs of administering student financial aid. It is used primarily by
Participants             oversight authorities to certify, and audit postsecondary institutions
System (PEPS)            participation within the program. PEPS feeds data to NSLDS, to maintain
                         current participation levels and for calculating default rates; and, to OCFO for
                         maintenance of audits.

Pell Grant               PELL stores program information on post-secondary, institutions and on
Recipient                recipients. It provides fund accountability and control information, and source
Financial                data for program budgeting and evaluation.
Management
System (PELL)

Title IV Wide            TIV WAN provides the network link from institutions to the Department’s
Area Network             systems, i.e., CPS, NSLDS, Pell, and DLOS, for delivery of student financial
(TIVWAN)                 information.




                                                       16
                                 REPORT DISTRIBUTION LIST
                                   Control Number 11-80014
                                                               No. of
Office of the Deputy Secretary                                 Copies

Marshall Smith                                                   2
Acting Deputy Secretary


Office of Student Financial Assistance

Greg Woods                                                       2
Chief Operating Officer

Gerard Russomano                                                 4
Director, Postsecondary Systems Service

OCF/CIO

Donald Rappaport                                                 2
Chief Financial Officer and Acting Chief Information Officer


David Dexter                                                     4
Acting Y2K Project Director


ED Office of Inspector General (electronically)

Inspector General                                                1
Assistant Inspector General for Audit                            1
Assistant Inspector General for Investigations                   1
Assistant Inspectors General for Operations                      1 each
Director, Advisory & Assistance, State and Local                 1
Director, PAMS                                                   1
Regional Inspectors General for Audit                            1 each
